United States Court of Appeals
For the First Circuit
No. 20-1610
GLEN PLOURDE,
Plaintiff - Appellant,
v.
STATE OF MAINE; DIRIGO COUNSELING CLINIC, LLC; MARIANNE LYNCH,
Penobscot County District Attorney; STEPHEN BURLOCK, Penobscot County Assistant
District Attorney; MEGANN HOLLAND, LCPC-C; ALAN ALGEE, Clinical Director,
Defendants - Appellees.

Before
Lynch, Selya and Kayatta,
Circuit Judges.
JUDGMENT
Entered: February 23, 2021
Plaintiff-appellant Glen Plourde appeals from a May 22, 2020 judgment dismissing his
civil action against the State of Maine, two assistant district attorneys, a counseling clinic, and two
counseling clinic employees for lack of subject matter jurisdiction. After careful review of the
record and Plourde's arguments on appeal, we affirm. Plaintiff-appellant's motionsfor appointment
of counsel are denied as moot.

By the Court:
Maria R. Hamilton, Clerk

cc:
Mark V. Franco, Alan Algee, Glen Plourde, Aaron M. Frey, Dirigo Counseling Clinic, LLC,
Marianne Lynch, Stephen Burlock, Megann Holland

A

uase i:2U-cy-uui3 r-Lhw Document u i-tiea ob/zi/zu page 1 or b pageiu #: ib«

UNITED STATES DISTRICT' COURT
DISTRICT OF MAINE
GLEN PLOURDE,

)
)

Plaintiff

)
)

v.

l:20-*cv-00137-LEW

)
)

STATE OF MAINE,
et at,

)
)
)

Defendants

>

ORDER OF DISMISSAL
BASED ON LACK OF SUBJECT MATTER JURISDICTION
Plaintiff seeks damages allegedly resulting from a prosecution in state court and his
participation in counseling as a result of the state court proceedings. Following a review
of the substantiality of the federal issues presented in the complaint and exhibits, the
complaint is DISMISSED. Plaintiff is hereby advised that filing restrictions may follow if
he pursues further baseless or frivolous litigation.
BACKGROUND
In connection with criminal proceedings in state court in 2016 and 2017, Plaintiff
sought counseling in the Bangor area. Plaintiff asserts he agreed to attend counseling as
part of a plea arrangement According to Plaintiff’s Complaint, the only provider available
was Dirigo Counseling Clinic LLC.
Plaintiff met for counseling with Defendant Holland but was dissatisfied with the
first encounter. During the first meeting, Plaintiff concluded Holland was unqualified to

B

case i:zo-cv-ooi3 /-llw Document a Hied ub/zi/zu Page 2ott> Pageiu m lay

provide counseling, and believed Holland’s questions during the session invaded his'
privacy. Plaintiff was also unsatisfied with the second meeting, which he characterizes as
abusive and harassing. Plaintiff ended the second meeting because he determined that
Holland was seeking to provide a diagnosis or was conducting a forensic examination of
his competency.
Plaintiff later met with a District Attorney for Penobscot County, who informed
Plaintiff that the case had been dismissed with prejudice because Plaintiff had complied
with the agreement to seek mental health treatment. Plaintiff was not satisfied with the
result because he claims he should have had the opportunity to review any medical
information the State received and because Plaintiff was not able to describe his
experiences and make arguments in open court.
A

In April 2020, Plaintiff filed the instant complaint against the State of Maine, two
state prosecutors, Dirigo Counseling Clinic, Holland, and the clinic director. Plaintiff
asserts twenty-four counts, including deprivation of state and federal constitutional rights,
attorney malpractice, wrongful disclosure of confidential information, falsification of
evidence, medical malpractice, fraudulent medical practice, assault, criminal threatening,
. harassment, and stalking. Many of the counts are based on Maine criminal statutes.
DISCUSSION
Issues of subject matter jurisdiction “can be raised sua sponte at any time” because
they relate to the fimriamental Article HI limitations on federal courts. See McBee v. Delica
Co., 417 F3d 107,127 (1st Cir. 2005). Courts have determined that this principle permits

2

Case l:20-cv-Q0137-LEW Document 8 Fded 05/21720 Page 3 ot 5

PagelD #: 170

them to dismiss a complaint prior to service ofprocess on the named defendants when it is'
apparent the complaint is frivolous or obviously lacks merit:
Because {Plaintiff] is neither a prisoner nor proceeding in forma pauperis in
district court, the provisions of 28 U.S.C. §§ 1915(eX2), 1915A, permitting
sua sponte dismissal of complaints which fail to state a claim are
inapplicable. However, frivolous complaints are subject to dismissal
pursuant to the inherent authority of the court, even when the filing fee has
been paid. In addition, because a court lacks subject matter jurisdiction over
an obviously frivolous complaint, dismissal prior to service of process is
permitted.
Yi v. Soc. Sec. Admin., 554 F. App’x 247,248 (4th Cir. 2014) (internal citations omitted);
see also, Evans v. Suter, No. 09-5242, 2010 WL 1632902, at *1 (D.C. Cir. Apr. 2,2010)
(“Contrary to appellant’s assertions, a district court may dismiss a complaint sua sponte
prior to service on the defendants pursuant to Fed. R. Civ. P. 12(hX3) when, as here, it is
»

evident that the court lacks subject-matter jurisdiction”); Rutledge v. Skibickiy 844 F .2d 792
(9th Cir. 1988) (“The district court may sua sponte dismiss a complaint prior to the issuance
of a summons if the court clearly lacks subject matter jurisdiction or lacks jurisdiction
because the claim is wholly insubstantial and frivolous”); Best v. Kelly, 39 F3d 328, 331
(D.C. Cir. 1994) (suggesting that dismissal for lack of jurisdiction may be warranted for
complaints such as “bizarre conspiracy theories,” “fantastic government manipulations of
their will or mind,” or “supernatural intervention”). A court’s expeditious sua sponte
review is based on the longstanding doctrine that federal subject matter jurisdiction is
lacking when the federal issues are not substantial. See Hagans v. Lavine, 415 U.S. 528,
536-37 (1974) (jurisdiction is lacking when claims are “so attenuated and unsubstantial as
to be absolutely devoid of merit,” “wholly insubstantial,” “obviously frivolous,” “plainly
3
• *•

Case l:20-c\MX)l37~LEW Document H Hied Oh/21720 Page 4 ot 5

PagelD #: 171

unsubstantial,” “no longer open to discussion, n uessentially fictitious,” or “obviously
without merit”); Swan v. United States, 36 F. App’x 459 (1st Cir. 2002) (“A frivolous
constitutional issue does not raise a federal question....”).1
My review of the allegations in the complaint and the exhibits reveals many of the
concerns that characterize unsubstantial claims. For example, Plaintiff implausibly asserts
that the use ofthe State’s motto, “Dingo,” in the name of the clinic reflects some important
or improper connection to the state government; that someone was surreptitiously
eavesdropping from outside the room during the first counseling session; that someone was
sending directions to the counselor through an electronic device during the second session;
and that one of the state prosecutors was actually a federal agent tasked with monitoring
Plaintiff at his apartment Complaint

14, 58, 73-82, 112-19. These allegations cannot

reasonably be construed to assert a substantial federal claim. Dismissal is therefore
appropriate.
Because dismissal ofthe federal claims is warranted, I do not exercise supplemental
jurisdiction over the state law claims. See Rodriguez v. Doral Mortg. Corp., 57 F.3d 1168,
1177 (1st Cir. 1995) (“As a general principle, die unfavorable disposition of a plaintiffs

1 Although the doctrine has been criticized for conflating jurisdiction over a claim with the merits of that
claim, see e.g., Rosado v. Wyman,291 U.S. 397,404 (1970) (the maxim is “more ancient than analytically
sound”); Bell v_ Hood, 327 U.S. 678, 682-S3,66 S. CL 773,776,90 L. Ed. 939 (1946) (regarding “wholly
insubstantial and frivolous” claims, “[t]he accuracy of calling these dismissals jurisdictional has been
questioned”), the doctrine nevertheless remains good law. See Crowley Cutlery Co. v. United States» 849
F.2d 273,276 (7th Cir. 1988) (“Although most of the Court's statements of the principle have been dicta
rather than holdings, and the principle has been questioned, it is an established principle of federal
jurisdiction and remains the federal rule. It is the basis of a large number of lower-court decisions, and at
this late date only the Supreme Court can change if3) (internal quotations ami citations omitted); see also,
Steel Co. v. Citizensfor a Better E/xv 't, 523 U.S. 83, 89 (1998) (approving of the doctrine); Cruz v. House
of Representatives, 301 F. Supp. 3d 75, 77 (D.D.C. 2018) (applying the concept to dismiss obviously
meritless claims).

4

case L20-cv-uui3/-LfcW Document 8 Hiea oh/zi/zu Page b or b pageiu#:i/z

federal claims at the early stages of a suit, well before the commencement of trial, will
trigger the dismissal without prejudice of any supplemental state-law claims”).
Because Plaintiffs complaint in this and several other cases lack merit, see 1:19cv-00486-JAW; 2:19-cv-00532-JAW, l:20-cv-00149-GZS, Plaintiff is further advised that
filing restrictions “may be in the offing” in accordance with Cok v. Family Court ofRhode
island,, 985 F.2d32,35 (1st Cm 1993).
CONCLUSION
Plaintiffs complaint is DISMISSED. Plaintiff is advised that filing restrictions
may follow if he pursues further baseless or frivolous litigation.
SO ORDERED.
Dqted this 21st day of May, 2020.
fsf Lance E. Walker
UNITED STATES DISTRICT JUDGE

5
a

United States Court of Appeals
For the First Circuit
No. 20-1610
GLEN PLOURDE,
Plaintiff - Appellant,
v.
STATE OF MAINE; DIRIGO COUNSELING CLINIC, LLC; MARIANNE LYNCH,
Penobscot County District Attorney; STEPHEN BURLOCK, Penobscot County Assistant
District Attorney; MEGANN HOLLAND, LCPC-C; ALAN ALGEE, Clinical Director,
Defendants - Appellees.

Before
Howard, Chief Judge.
Selya, Lynch, Thompson,
Kayatta and Barron, Circuit Judges.
ORDER OF COURT
Entered: April 28, 2021
The petition for rehearing having been denied by the panel of judges who decided the case
and the petition for rehearing en banc having been submitted to the active judges of the court and
a majority of the judges not having voted that the case be heard en banc, it is ordered that the
petition for rAeanng anBrpetiti6irf6?l^hSBng~en banc be denied.
~~

By the Court:
Maria R. Hamilton, Clerk

cc:
Mark V. Franco, Alan Algee, Glen Plourde, Aaron M. Frey, Dirigo Counseling Clinic, LLC,
Marianne Lynch, Stephen Burlock, Megann Holland

c

